  Pension Benefit Guaranty Corporation
         Office of Inspector General
         Audit Alert Memorandum




PBGC Needs to Require Corrective Action Plans to
       Address Audit Recommendations




                 May 21, 2002
                                         2002-9/23167
                                                                          Office of Inspector General

                                                                                   May 21, 2002


                            AUDIT ALERT MEMORANDUM


TO:            Steven A. Kandarian
               Executive Director

FROM:          Wayne Robert Poll
               Inspector General

SUBJECT:       PBGC Needs to Require Corrective Action
               Plans to Address Audit Recommendations
               OIG Report No. 2002-9/23167


       I write to alert you of PBGC’s long-standing need to require that a Corrective Action
Plan (CAP) be developed to address each recommendation contained in audit reports issued
by the Office of Inspector General (OIG) and the General Accounting Office (GAO). These
CAPs should contain specific steps PBGC will take to correct the weaknesses identified and
reported. By this memorandum, I am officially recording the OIG’s concerns to ensure that
PBGC complies with external and internal requirements to develop CAPs, and that
appropriate steps be included for OIG monitoring.


External and Internal Requirements for Agency CAPs

       Circular A-50, Audit Follow-up (Sept. 29, 1982), issued by the Office of Management
and Budget (OMB Circular A-50), provides the policies and procedures for executive agencies’
actions in response to OIG and GAO audit reports. OMB Circular A-50 requires that agencies
establish follow-up systems that meet eleven (11) standards for resolution and corrective
action. Three of these standards apply specifically to CAPs and require the agency to:

   •    Require prompt resolution and corrective actions on audit recommendations
       (§ 8.a.(2)).

   •   Specify criteria for proper resolution and corrective action on audit
       recommendations… These criteria should provide for written plans for corrective
       action with specified action dates, where appropriate (§ 8.a.(3)).

   •   Maintain accurate records of the status of audit reports or recommendations
       through the entire process of resolution and corrective actions (§ 8.a.(4)).

In addition, OMB Circular A-50 states that the agency will provide written comments
indicating agreement or disagreement with reported findings and recommendations.
Further, comments indicating agreement “…shall include planned corrective actions and,
Audit Alert Memorandum
No. 2002-9/23167
Page 2 of 5

where appropriate, dates for achieving actions.” (See § 6.a.)
Audit Alert Memorandum
No. 2002-9/23167
Page 3 of 5


      PBGC has issued its own policy and procedures for audit follow-up in PBGC Directive
GA 15-3, Audit Follow-up System (5/20/94). Among the provisions that address CAPs are:

   •   Section 4.b. requires that when the agency agrees with a recommendation in
       an audit report, its response shall include, “planned corrective actions,
       including actual or estimated dates for achieving actions.”

   •   Section 5.c.(5) requires Department Directors to “develop action plans for
       implementing both OIG and GAO recommendations and submit the plans to
       the Chief Financial Officer (CFO) for approval.”

   •   Section 7.b.(2) requires Department Directors to “furnish the IG with a copy of
       the action plans submitted to the CFO.”

      In addition, Section 7.b.(1) of Directive GA 15-3 states that in reply to the OIG’s
Semiannual Listing, the Department Directors will provide the IG :

       (a) the appropriate policies, procedures, laws, regulations, directives or
       other documentation reflecting actions taken for those recommendations
       on which corrective or implementation actions have been completed; and

       (b) an explanation of actions in process and a timetable for completion
       for those recommendations on which corrective or implementation
       actions have not been initiated or completed.


OIG Efforts to Obtain Agency Compliance

      From time to time when meeting with PBGC Executive management, I reminded them
of PBGC’s responsibility to develop written CAPs to respond to OIG and GAO audit
recommendations. In addition, I note the following specific instances in which the need for
CAPs has been raised by my office:

   •   Beginning with the January 31, 2000 Semiannual Listing of Audit
       Recommendations and continuing for the next five Semiannual Listings, we
       have reminded PBGC that CAPs must be developed for the open audit
       recommendations.

   •   During January 2001, Acting Executive Director John Seal directed PBGC
       department directors to take actions designed to address and close 80 open
       audit recommendations assigned to them. Many of these recommendations
       were outstanding for more than a year and none had a CAP to verify
       compliance and completion.

   •   In February 2001, the Inspector General had discussions with Hazel Broadnax,
       then-Acting Chief Financial Officer, and representatives from the Corporate
       Controls and Review Department (CCRD) regarding PBGC’s requirement to
       produce and implement CAPs.

       Finally, I note that the OIG has repeatedly sought specific documentation from
various departments to substantiate their claims that actions have been completed to close a
recommendation. In general, we have been unsuccessful in obtaining the required
compliance evidence.
Audit Alert Memorandum
No. 2002-9/23167
Page 4 of 5

Agency Benefits from Developing CAPs

       PBGC’s need to develop CAPs stems from more than compliance with external and
internal requirements, though that is important. A CAP could shorten the length of time an
audit recommendation is open and would reduce untimely questions about what actions are
needed to close the recommendation.

       Our experience over the years indicates that not having CAPs to address audit
recommendations has contributed significantly to the length of time the recommendations
stay open. For instance, the following examples are not uncommon:

   •   PBGC agrees to an audit recommendation in its response to a draft OIG report.
       When the report is issued in final, PBGC’s comments are included. However, in
       responding to the Semiannual Listing, PBGC has at times expressed
       disagreement with either the original recommendation or the action necessary
       to satisfy the recommendation. In some instances, PBGC has used the
       Semiannual Report on Audit Follow-up as a forum to argue a position different
       from that presented in the final report.

   •   Because action was not taken immediately to address the recommendation,
       PBGC loses focus on the intent of the recommendation. This results in multiple
       meetings, phone calls, and e-mails to re-explain actions needed to satisfy the
       recommendation.

I believe recommendations could be closed within a reasonable timeframe if the required
CAPs were developed.


Suggested Actions

       It is clear that PBGC is not complying with its responsibility imposed by OMB
Circular A-50 and Directive GA 15-3 to create and implement CAPs. With the issuance of
this Audit Alert Memorandum and PBGC’s focus on the issue, there is the opportunity to re-
examine GA 15-3 and improve this process.

        Recently I received a CAP proposal from the CFO that is a step in the right direction.
However, I believe that Directive GA 15-3 does not include all of the necessary elements to
ensure that CAPs really accomplish the goal of timely completion of audit
recommendations. We suggest the CAP process should include the following steps to be
effective:

   •   High-level CAPs are submitted with PBGC’s response to the draft audit report.

   •   Departments who are assigned audit recommendation responsibility are
       required to prepare a specific CAP with detailed actions and due dates within
       30 days after a final OIG or GAO audit report is issued. The OIG is available
       for consultation with managers concerning proposed actions.

   •   The CAP is provided to the CFO and the OIG concurrently for review and
       comment as to whether the Department’s proposed actions meets the intent of
       the finding and recommendation.

   •   Department program officials meet with the CFO within 30 days, if necessary,
       to discuss comments and agree on CAP actions and due dates.
Audit Alert Memorandum
No. 2002-9/23167
Page 5 of 5


      •   The CAP is approved by the CFO within 60 days after the final audit report is
          issued, unless an extension of time is sought and approved.

       If this CAP process is implemented it should result in more timely correction
of identified weaknesses and reduce controversy over audit recommendations
months after PBGC agreed to them. Further, we believe that improvements to the
CAP process will significantly reduce the time that audit recommendations remain
open.


cc:       Hazel Broadnax, CFO

          Marty Boehm, CCRD
